<html>
<title> - THE EMPLOYMENT SITUATION: FEBRUARY 2010</title>
<body><pre>[Senate Hearing 111-544]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-544
 
                THE EMPLOYMENT SITUATION: FEBRUARY 2010 

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2010

                               __________

          Printed for the use of the Joint Economic Committee

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-377 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                    Andrea Camp, Executive Director
               Jeff Schlagenhauf, Minority Staff Director





















                            C O N T E N T S

                              ----------                              

                                Members

Hon. Robert P. Casey, Jr., a U.S. Senator from Pennsylvania......     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Michael C. Burgess, M.D., a U.S. Representative from Texas..     5

                               Witnesses

Statement of Dr. Keith Hall, Commissioner, Bureau of Labor 
  Statistics, U.S. Department of Labor, Washington, DC; 
  Accompanied by: Mr. Philip Rones, Deputy Commissioner, Bureau 
  of Labor Statistics; and Dr. Michael Horrigan, Associate 
  Commissioner for Prices and Living Conditions, Bureau of Labor 
  Statistics.....................................................     7

                       Submissions for the Record

Prepared statement of Representative Kevin Brady.................    28
Prepared statement of Representative Michael C. Burgess, M.D.....    29
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. USDL-10-0256.    29


                       THE EMPLOYMENT SITUATION:
                             FEBRUARY 2010

                              ----------                              


                         FRIDAY, MARCH 5, 2010

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m. in Room 
106 of the Dirksen Senate Office Building, The Honorable 
Senator Robert P. Casey, Jr., presiding.
    Representatives present: Cummings, Brady, and Burgess.
    Senators present: Casey.
    Staff present: Brenda Arredondo, Andrea Camp, Gail Cohen, 
Colleen Healy, Kinsey Kiriakos, Andrew Wilson, Lydia Mashburn, 
Jeff Schlagenhauf, Ted Boll, and Robert O'Quinn.

OPENING STATEMENT OF THE HONORABLE ROBERT P. CASEY, JR., A U.S. 
                   SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    We want to thank our witnesses for being here this morning. 
Commissioner Hall, thank you for your presence again. I know we 
have a number of Members who will be here and as they come in 
we will be able to prepare for the questioning. But I did want 
to thank you, Commissioner, and your team for once again being 
here.
    We are in a period of tremendous trauma for a lot of 
Americans. I know in Pennsylvania, by way of example, we don't 
have one of the highest unemployment rates but the numbers are 
staggering. We have about 560,000 people out of work in 
Pennsylvania as of December. It is about the same number in 
January.
    We do not know what the number will be for February, but I 
know a lot of people in Pennsylvania, across the board--and it 
is not limited to one region--have had great difficulty.
    We have to continue here in Washington not only to be aware 
of the difficulty, but to act to tackle the problem. We have 
taken some steps in the last year. The Recovery bill I believe 
has begun to work in many places, and in some places has worked 
in a very substantial way.
    That is not enough, even if it is working very well. We 
have taken steps that I will highlight a little later in the 
last couple of days. I know the House just worked yesterday to 
pass legislation that the Senate worked on, and we will have 
that returned to the Senate and will get that piece of 
legislation worked through--the so-called ``Hire Act''--to 
create more jobs and to have a four-part strategy to do that. 
But in addition to that, we have other legislation as well.
    But I am grateful, as I think many Americans are, that the 
unemployment rate has remained unchanged at 9.7 percent; but as 
I said before, there is much work to do.
    In February of 2009 across America we lost 728,000 jobs. 
That was after January of 2009 where we lost about 740,000 
jobs. And we lost over six hundred thousand in March of 2009. 
In the previous December of 2008 we were losing between 600,000 
and 700,000 jobs.
    We have come from a period a year ago where every single 
month for at least four months, maybe longer, we were losing 
over 600,000 jobs. We are in a period now where the job loss is 
still too high. We cannot rest in terms of moving forward. But 
instead of losing 740,000 jobs, or 726,000 jobs in the months 
of January, February, and March of last year, around that 
number, we are losing in the tens of thousands. We are losing 
26,000--lost 26,000 in January 2010; and then this month of 
February of 2010, 36,000 jobs.
    We know that the Congressional Budget Office (CBO), which 
for a lot of Americans did not hear much about that office 
prior to last year, but because of health care and some other 
debates we have had here, it has been recognized, the so-called 
CBO has been recognized as an arbiter, or the one office in 
Washington that has had a significant impact on certifying or 
stating what the numbers are, whether it is scoring the health 
care bill and telling the American people what it cost, but 
also in terms of what is happening with employment.
    The Congressional Budget Office reported last week that the 
Recovery Act added between 1 million and 2.1 million jobs in 
the fourth quarter of 2009, and it raised economic growth by 
1.5 percent to 3.5 percent over that period.
    CBO Director Elmendorf said during a period hearing of this 
Committee that the policies that were enacted in the bill are, 
quote, ``increasing GDP unemployment relative to what it 
otherwise would be,'' unquote.
    Not my words, his words. However, we are not anywhere near 
out of the woods yet. We have got a ways to go. I mentioned 
that the Senate and the House had worked on the so-called 
``Hire Act.'' The Hiring Incentives To Restore Employment Act.
    The Act has, as I mentioned before, four basic strategies, 
four basic elements.
    Number one, a payroll tax holiday for those employers who 
hire new employees.
    Number two, a Build America Bonds Act so our local 
government entities can borrow money in a way that is more 
affordable.
    Third, an extension of the Highway Trust Fund, essential to 
preserve jobs. Hundreds of thousands of jobs can be preserved 
by just a one-year extension of the Highway Trust Fund to keep 
road building and other infrastructure, related infrastructure 
moving forward.
    And fourth, the Hire Act focuses, as well as I think the 
other provisions do but in a very focused way, on small 
business: the ability to write off certain expenditures. If a 
small business wants to invest in new equipment, through this 
Act we give them an opportunity to do that in a more 
substantial way.
    Currently the Senate, as many people know, is working on an 
additional piece of job creation legislation: The American 
Worker, State, and Business Relief Act. Upon passage of this 
legislation, we will provide a couple of things. I will just do 
a quick summary.
    Number one, energy efficiency tax credits.
    Number two, tax credits for businesses to free up cash flow 
and enable them to expand and hire.
    Number three, the extension of important safety net 
programs. It is critically important that we do that for COBRA, 
health insurance for those who have lost their job; 
Unemployment Insurance for those who lost their job through no 
fault of their own; and we have got big numbers of Americans in 
that category. Millions of people that have lost their jobs. We 
have got to help them get from here to there, from unemployment 
to employment. And you cannot ask them to do that and have 
their families do that alone, as some in Washington seem to 
want to do.
    So we need to continue to focus not only on new and more 
focused job creation strategies, we also have to have a safety 
net in place.
    And by the way, the safety net programs also have an 
economic benefit. You spend a buck on Unemployment Insurance or 
Food Stamps, and you get a return on that investment of a lot 
more than a buck, $1.65 or $1.70, or $1.75. We need to continue 
to make sure that Americans know it is not only the right thing 
to have a safety net, it also has a jump starting effect on our 
economy and creates jobs.
    We are going to continue to work on this legislation that I 
mentioned in the Senate. We are going to continue to focus on 
job creation strategies as we move forward.
    I will wrap up now so we can move forward with our opening 
statements from our Members, and then we will get to 
Commissioner Hall.
    Congressman Brady.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Thank you, Mr. Chairman. I am pleased 
to join with you in welcoming Dr. Hall before the Committee 
this morning.
    Today's employment report is more bad news for American 
workers and their families. Payroll employment fell by 36,000. 
After excluding the hiring of temporary Census workers, payroll 
employment fell by closer to 51,000. The employment rate 
remains unchanged. It is not moving down, as was promised with 
the passage of the first Stimulus, and the number of 
discouraged workers reached a series high of 1.2 million.
    I know that earlier this week the Administration attempted 
to spin these numbers as a result of storms in the Northeast, 
but in truth it is a blizzard of bad policy proposals.
    Higher taxes, health care mandates, and dangerous levels of 
debt is the real reason businesses are delaying key investment 
and hiring decisions. Coupled with consumers concerned about 
their finances, as well as the government's unsustainable 
finances, you have got the real answer why this economic 
recovery is so sluggish.
    The uncertainty in America among job creators in the public 
is palpable. Jamming the massive health care takeover and 
another wasteful Stimulus bill through Congress will not 
restore confidence.
    With two-thirds of the original Stimulus bill left to be 
spent, it is ludicrous for Congress to attempt a second 
Stimulus bill, one which as I laid out to our small- and 
medium-sized businesses last week and asked for their opinions, 
they said it would do nothing to encourage them to hire new 
workers. A $1,000 tax credit, or payroll holiday, to hire a 
$40,000 worker is not good math.
    Until the customers and their clients show that they are 
ready to buy again and expand again, we will not see those 
hiring decisions.
    I know the President and Congress is well intentioned in 
all these efforts, but I am puzzled by the President's economic 
approach. I don't know what you call it. Maybe blamenomics. If 
you can blame it, you can tax it. If you can blame it, you can 
punish it. We are seeing that in proposals to punish U.S. 
energy companies who produce jobs and invest here in the United 
States.
    U.S. banking and financial services industries, the U.S. 
insurance industries, investors with higher taxes on dividends 
and capital gains, higher income taxes on professionals and, 
quote, ``the wealthy''; higher taxes on real estate; tripling 
the taxes on real estate partnerships, hedge funds, 
pharmaceutical companies here in the United States; companies 
that compete around the world, are all facing dangerous, 
punishing attacks proposed in the President's budget.
    And so I think when the White House sees these poor 
numbers, they wonder why isn't anyone hiring? Gee, Beaver, it 
could be that these proposals are having a huge dampening 
effect on our ability to recover.
    I am convinced that if government does move out of the way, 
the American consumers and American business leaders are 
inherently optimistic and will bounce back more readily from 
severe recessions than any country in this world, but what they 
see out of Washington again is that blizzard of bad policy 
proposals that is having a huge impact.
    And I will close with this. We talk about restoring 
consumer confidence. What I noticed is that the week that the 
Congress was snowed out of business, the spirits of the 
American public lifted. You know, perhaps the best stimulus 
package today--I say this only half jokingly--would be for 
Congress to adjourn for the rest of the year to allow people to 
really live their lives and for businesses to move forward with 
their investment decisions without the heavy hand and the 
really dampening effect of these proposals on them. I think we 
can do better than this. I am anxious to work with other Senate 
Members and House Members on issues that really can get 
government out of the way and allow us to prosper again. I 
yield back.
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 28.]
    Senator Casey. Congressman Burgess.

OPENING STATEMENT OF THE HONORABLE MICHAEL C. BURGESS, M.D., A 
                 U.S. REPRESENTATIVE FROM TEXAS

    Representative Burgess. Thank you, Mr. Chairman.
    In January in this Committee, a frequent attendee at this 
Committee, Christina Roemer, head of the President's Council of 
Economic Advisers, responded to the losses of jobs in December 
defensively by stating that sometimes real recovery occurs in 
``fits and starts,'' but we need to focus on the overall 
trajectory.
    So, okay, let's do that. We have 14 months of the 
trajectory of the Obama Administration. Now, in the State of 
the Union, the speech that blame was cast on previous 
Administrations in bringing us to the current situation but 
realistically, a year ago last month, with the passage of the 
Stimulus bill, this Administration began ownership of what was 
going to be their recovery.
    They advocated for a $787 billion bill, which the 
Congressional Budget Office now says cost the American 
taxpayers $862 billion, and we had to pass it. We had to pass 
it in a hurry. We had to pass it without reading it. We had to 
pass it without thinking about it, because we had to act 
quickly to keep the unemployment rate from going above 7 
percent.
    And, if we spent the $862 billion, too, as President Obama 
said, we will save or create more than 3 million new jobs over 
the next five years, close quote, then perhaps Members of 
Congress wouldn't be upset. But it didn't happen. It didn't 
work out.
    And since we borrowed that money, unemployment has been on 
an extraordinary rise to 10 percent, with a small reprieve 
today, and the Congressional Budget Office said that the 
economic effect of the Stimulus bill would go negative starting 
at the end of this fiscal year.
    Furthermore, only 40 percent of the so-called stimulus 
bill's $862 billion cost has been handed out, while the country 
has lost 3 million jobs since the bill passed.
    So the big question is: Why?
    Why did the Administration and this Congress pass this bill 
only to sit on the money, all the while paying interest on the 
loan, while jobs are leaving in droves?
    Yesterday, in one of the little newspapers that's published 
here up on the Hill, Congressional Quarterly, they reported 
that the Energy Department got $33 billion from the Stimulus 
and has spent $2.4 billion.
    Now, I never thought the day would come when I would agree 
with Senator Schumer, but Senator Schumer is right to want to 
freeze the Stimulus spending on renewable energy grants because 
the oversight is nonexistent, and there is no looking into how 
these funds are being spent, or if they are being spent at 
American companies.
    Or consider the Education Department. Secretary Duncan 
received $100 billion in Stimulus funds, doubling the budget 
from the previous year and, despite his outward commitment to 
charter schools, the Secretary, the Administration, could not 
even be bothered to give the District of Columbia the $8 
million it needed to fund the D.C. Opportunity Scholarship 
Program, which has helped over 3300 students in Washington, 
D.C., improve their quality of life. $8 million. I cannot even 
calculate the percentage, it's so infinitesimally small of what 
that percentage is of the $100 billion that they got for the 
Education Department.
    So I sincerely hope, as we continue to look at the 
unemployment numbers, delve into the numbers, dissect the 
numbers, we consider this Administration's solution to 
unemployment and hold them accountable as to how the money is 
spent, if it is spent at all and, bottom line, how many jobs 
have been created.
    Thanks, Mr. Chairman, I'll yield back the balance of my 
time.
    [The prepared statement of Representative Michael C. 
Burgess, M.D. appears in the Submissions for the Record on page 
29.]
    Senator Casey. Congressman Elijah Cummings.
    Representative Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, I appreciate you calling this hearing, and 
the two hearings that were held last week on job creation, as 
well as all the fine work this Committee has already done on 
this very, very critical issue.
    Frankly, no matter how many hearings we hold it will not be 
enough, because there are 14.9 million unemployed Americans, 
and the damage done to them, their families, and their 
communities is unending.
    As we know, the unemployment crisis we face right now was 
preceded by the collapse of a nationwide housing bubble. 
Falling home values left borrowers under water and, in many 
cases, unable to make the payments on a ballooning high 
interest loan.
    All of this furthers a nasty pro-cyclical twist where 
unemployment leads to more foreclosures, which drives down 
demand and feeds more unemployment.
    Last Thursday in the Oversight and Government Reform 
Committee we heard again about the havoc wrought by 
foreclosures. This time it was officials from the northeast 
Ohio area discussing the destruction that foreclosures have 
done to the city and the outlying suburbs.
    We saw pictures of vacant homes in Cleveland side by side 
with pictures of post-Katrina New Orleans. You could not tell 
the difference between the two. Unfortunately, I do not need to 
attend a hearing to learn this. I just have to go home to my 
Baltimore neighborhood, or across the city and I can see the 
same things.
    Thus, I have made foreclosure prevention my highest 
priority and will continue to do so. As the witnesses told us 
at the Oversight Committee hearing last Thursday, we can only 
fix the economy if we can keep people in their homes.
    So as long as the perfect storm created by unemployment and 
foreclosures remains over us, it is incumbent on us to do more 
and do more soon.
    I know the Senate passed a $15 billion Jobs bill, and 
yesterday we moved that bill toward President Obama's desk, but 
I did not cast my vote for it for mere satisfaction. There are 
too many people sitting at home, six or even twelve months 
unemployed, with a house worth 20 percent less than the note on 
it, and they need more than a watered down Jobs bill.
    So before I close I will pass along a quote that I found 
striking from an article in last month's Atlantic Monthly. 
Reading a quote will not solve anything, but I still keep it in 
my head as a reminder. And that is this:
    ``There is unemployment, a brief and relatively routine 
transitional state that results from the rise and fall of 
companies in any economy; and, there is unemployment, chronic, 
all-consuming. The former is a necessary lubricant in any 
engine of economic growth. The latter is a pestilence that 
slowly eats away at people, families and, if it spreads widely 
enough, the very fabric of a society. Indeed, history suggests 
that it is perhaps society's most noxious ill.'' End of quote.
    Mr. Chairman, thank you again for your leadership in 
addressing the Nation's employment and housing crisis. I also 
thank Dr. Hall and his colleagues for their consistently strong 
work at the Bureau of Labor Statistics, and I look forward to 
their testimony.
    With that, I yield back.
    Senator Casey. Thank you very much.
    I want to introduce Commissioner Hall. Commissioner Hall is 
the Commissioner of Labor Statistics for the United States 
Department of Labor. The BLS is an independent national 
statistical agency that collects, processes, analyzes, and 
disseminates essential statistical data to the American public, 
the United States Congress, other federal agencies, state and 
local governments, business, and labor.
    Dr. Hall also served as Chief Economist for the White House 
Council of Economic Advisers for two years under President 
George W. Bush. Prior to that he was Chief Economist for the 
United States Department of Commerce. Dr. Hall has also spent 
10 years at the United States International Trade Commission.
    He received his B.A. Degree from the University of 
Virginia, his M.S. and Ph.D. Degrees in Economics from Purdue 
University.
    Dr. Hall, you have the floor. Thank you.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
     STATISTICS, U.S. DEPARTMENT OF LABOR, WASHINGTON, DC; 
 ACCOMPANIED BY: MR. PHILIP RONES, DEPUTY COMMISSIONER, BUREAU 
   OF LABOR STATISTICS; AND DR. MICHAEL HORRIGAN, ASSOCIATE 
COMMISSIONER FOR PRICES AND LIVING CONDITIONS, BUREAU OF LABOR 
                           STATISTICS

    Commissioner Hall. Mr. Chairman, and Members of the 
Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment was little changed in February, 
and the unemployment rate held at 9.7 percent. Employment fell 
in construction and information, while temporary help services 
added jobs.
    Severe winter weather in parts of the country may have 
affected payroll employment and hours in February. However, as 
I will explain in a moment, there are too many unknowns to say 
precisely how much the weather might have affected these 
measures.
    Construction employment fell by 64,000 in February, about 
in line with the average monthly job loss over the prior 6 
months.
    Job losses continued throughout the industry, although 
nonresidential specialty trades again accounted for much of the 
over-the-month decline. In the information industry, employment 
fell by 18,000.
    Temporary help services employment increased by 48,000 over 
the month. Since last September, this industry has added 
284,000 jobs. Health care employment continued to trend up in 
February. Employment in most other industries showed little or 
no change.
    Average weekly hours for all employees in the private 
sector decreased by one-tenth of an hour in February. Average 
weekly hours declined more significantly in construction and 
manufacturing: 0.5 and 0.4 hour, respectively. These declines 
likely reflect the time lost due to the severe winter weather.
    Turning now to data from the survey of households, most key 
labor force measures were essentially unchanged in February. 
The unemployment rate remained at 9.7 percent, with jobless 
rates for the major worker groups showing little or no change.
    Of the 14.9 million unemployed in February, the proportion 
who had been jobless for 27 weeks or more was 40.9 percent, 
little different from the all-time high of 41.2 percent reached 
in January.
    The number of individuals working part time who preferred 
full-time work rose from 8.3 to 8.8 million in February, 
partially offsetting a large decrease in January. Involuntary 
part-time employment levels had held at or near 9.2 million in 
the final months of 2009.
    Before closing, I would like to return to the issue of how 
the severe winter weather in February may have affected the 
payroll employment estimates released today.
    Major snow storms struck parts of the country during the 
reference period for our establishment survey. Many schools, 
government agencies, and businesses closed temporarily, and 
many people were off work for a time because of the storms.
    In the establishment survey, workers who do not receive any 
pay for the entire pay period are not counted as employed.
    Therefore, it is possible that the storms had some negative 
impact on payroll employment. However, not every closure or 
temporary absence causes a drop in employment. Workers are 
counted as employed in the establishment survey if they are 
paid for a single hour during the reference pay period, whether 
they worked or not.
    Also, half of all workers have bi-weekly, semi-monthly, or 
monthly pay periods. I would assume that most of them worked 
during the part of the pay period that preceded or followed the 
snow events.
    In addition, we do not know how many workers may have been 
added to payrolls for snow removal, cleanup, and repairs due to 
the storms. Nor do we know how new hiring or separations were 
affected by the weather.
    For these reasons, we cannot say how much February's 
payroll employment was affected by the severe weather.
    In our household survey, persons with a job who miss work 
for weather-related events are counted as employed whether or 
not they were paid for their time off.
    In summary, nonfarm payroll employment was little changed 
in February, and the unemployment rate held at 9.7 percent.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall, together with 
Press Release No. USDL-10-0256, appears in the Submissions for 
the Record on page 29.]
    Senator Casey. Thank you very much, Commissioner.
    The sentence or two that you have just concluded with, 
using the phrase used earlier, ``little changed,'' is 
encouraging. In this sense, just from my vantage point it is 
hard to use phrases like ``good news,'' or to be overly 
positive, but it is encouraging that we are at least, I will 
use my word, stabilizing. And that is critically important.
    I did want to ask you about a couple of sectors, or 
subsets. I wanted to ask you about health care.
    I know that consistently--and I know this goes back a 
ways--but the health care employment as an industry has been 
fairly strong over time. I just want to get your sense of that 
over the last couple of months of what you see for the rest of 
the year, to the extent that you can predict or identify a 
trend in health care.
    Commissioner Hall. Sure. Health care actually has continued 
to fairly consistently add jobs even during the worst times 
during this Recession.
    This past month, health care added about 12,000 jobs. Over 
the past 4 months we added an average of about 15,000 jobs. 
That is still in the same neighborhood. So health care has been 
remarkably consistent in having some growth.
    Senator Casey. How about other sectors that have had growth 
or have been stronger than--I know we have had for a long, long 
time a manufacturing challenge--but any other areas you can 
point to say within the last year, or the last couple of 
months?
    Commissioner Hall. Well manufacturing, as you mentioned, we 
actually had--manufacturing job growth was flat this month. We 
gained, our point estimate was about 1,000 jobs, and we gained 
some jobs in the prior month, and that is the first time 
manufacturing has shown job gains in three years.
    Senator Casey. I would call that good news.
    Commissioner Hall. Yes.
    Senator Casey. My words.
    Commissioner Hall. Yes. A lot of the industries have 
stopped losing jobs. They have been fairly flat now for a few 
months. The actual job loss has been centered in things like 
construction. We lost 64,000 jobs in construction. And actually 
we lost a notable amount of jobs in local government. We lost 
about 31,000 jobs in local government this month.
    Senator Casey. In my opening remarks I talked about 
comparing January 2009 and February 2009 with the 2010 months. 
Do you have those in front of you, the job loss in January of 
2009 and February 2009 versus 2010? I don't know if you have 
those, but I just want to establish that on the record.
    Commissioner Hall. Sure. Absolutely.
    Well in January of 2009 we lost 779,000 jobs.
    Senator Casey. 779,000?
    Commissioner Hall. 779,000. And in February 2009 we lost 
726,000 jobs.
    Senator Casey. Of 2009?
    Commissioner Hall. Of 2009. And that is compared to 26,000 
and 36,000 for this year.
    Senator Casey. Okay. That is why I did this, because you 
have the accurate number. We have used the number of 741,000 
loss in January 2009, but I guess that gets adjusted?
    Commissioner Hall. Yes. Our benchmark adjusted the numbers 
slightly.
    Senator Casey. In the two-month period, comparing one year 
to the next: 779,000 in January; plus what's the February 
number again?
    Commissioner Hall. 726,000.
    Senator Casey. 726,000 in February of 2009. And that is 
versus now 26,000 plus 36,000 for 2010?
    Commissioner Hall. 26,000 and 36,000.
    Senator Casey. Okay. Finally, and I know my time is running 
out and I'll come back, but two subcategories I asked you 
about, I don't know if it was last month or the month before, 
but Veterans and Americans who have disabilities.
    I was handed a note here that I wanted, in terms of 
Veterans in particular, if you could answer this, because I 
know we're low on time, Veterans from the post-2001 period Gulf 
War, I am told that that rate is higher than the national 
Veterans rate? Could you just walk through some of those, to 
the extent that you have them?
    Commissioner Hall. Sure. We have been characterizing that 
as ``Gulf War Era II Veterans.'' The unemployment rate for 
February was 12.5 percent, which is, as you say, well above the 
national average.
    Senator Casey. And how about the overall? Is there a number 
for overall Veterans?
    Commissioner Hall. Yes. For overall Veterans the 
unemployment rate is 9.5 percent. So it is actually a little 
bit less than the national average.
    Senator Casey. So the folks serving most recently are 
having a tougher time, I guess?
    Commissioner Hall. Yes.
    Senator Casey. Persons with disabilities? Do you have that 
number?
    Commissioner Hall. Yes, I do. The unemployment rate for 
persons with disabilities is 13.8 percent, although I will say 
that the more notable fact on people with disabilities is a 
very low labor force participation rate. Labor force 
participation rate is only about 21.9 percent for people with 
disabilities. That is as opposed to somewhere over 60 percent 
for a national average.
    Senator Casey. Okay. Thank you.
    Congressman Brady.
    Representative Brady. Thank you, Mr. Chairman.
    Earlier this week the White House attempted to sort of spin 
the bad numbers in advance, knowing that their policies have 
failed our economy miserably.
    Larry Summers said that the snow storms, localized snow 
storms, would distort the unemployment and jobs numbers of 
today. But--which is the equivalent of the dog ate my economy, 
as an excuse.
    But in your testimony you really tend to dismiss that 
because you point out there are two ways we collect jobs 
numbers--you collect jobs numbers--for our country. One, of 
course, is the household survey where you call people and ask 
them.
    Obviously, if they're on vacation or home sick, or 
prevented from working by bad weather, they are not counted as 
unemployed; they are just not working that day.
    And then the other way that you collect information through 
the employment survey, what you said in your testimony as well, 
was basically the only way they would be counted as unemployed 
is if they received not a dime during the month of their pay 
period, the bi-weekly pay period, or weekly pay period, they 
would literally have to be out of work for their whole pay 
period to be counted as unemployed during that period.
    Is that correct?
    Commissioner Hall. That's correct.
    Representative Brady. So would you say that the snow storms 
distorted the jobs numbers you are presenting today?
    Commissioner Hall. I would say it is really hard to tell. I 
would say we won't know--we will have a much better idea, I 
would say, by looking at next month's numbers to sort of see. 
Because whatever happened with the snow storms this month will 
be gone by next month, so we will see a bounce-back, if there 
was an effect.
    But there is really no way for us to precisely know. 
Obviously, we saw a decline in hours worked, like you would 
expect.
    Representative Brady. Sure.
    Commissioner Hall. But as you say with the payroll jobs it 
is difficult for us, because we are actually looking at 
establishment payrolls, and different establishments have 
different payroll periods. As I say, some are one week, some 
are two weeks, some are four weeks. So we cannot even really 
give you a good idea of how likely it is that the payroll----
    Representative Brady. I just think it is important that we 
not be trying to spin these numbers in advance when we just 
know they are headed in the wrong direction.
    One thing the White House did not talk about was the 
distortion caused by the hiring of temporary Census workers. 
This year, my understanding is that the government will be 
hiring between 700,000 and 800,000 temporary workers, which 
will actually boost the jobs numbers really out of the 
mainstream.
    In January and February, how many of those Census workers 
were hired and are counted in these numbers today?
    Commissioner Hall [continuing]. Well for the job growth 
today, 15,000 jobs were added for Census workers. So from the 
negative 36,000, 15,000 growth. So it would have been negative 
51,000.
    Representative Brady. 51,000 jobs lost.
    Can I ask you, I am convinced our economic recovery is 
sluggish and subpar in comparison to how we have responded to 
past severe recessions, how we've responded to the Reagan 
recovery, against our competitors around the world.
    I am looking at the unemployment rate from when the 
Stimulus took effect till today. Our unemployment rate has 
increased by 1.5 percentage points. Australia has increased by 
a fraction during that period. Canada is one-tenth of our 
increase. Japan has increased by less than a third of what the 
U.S. has increased in unemployment. We are worse than the 
European Union. We are falling behind countries like South 
Korea.
    Can you compare--so it appears we are falling behind our 
major competitors in the effort to come back to a sustained, 
vibrant economic recovery. Can you compare our unemployment 
numbers and increases over the past year to our major 
competitors?
    Commissioner Hall. I don't have that in front of me. I 
would have to--to be honest with you, I'd have to take a look 
at it. I haven't looked at those numbers. We do make those 
comparisons in one of our programs when we do international 
labor comparisons.
    Representative Brady. Great.
    Commissioner Hall. I know in general our unemployment rate 
is comparable to a number of the European Union countries at 
the moment. Some are better, some are worse. I think the 
average in the European Union unemployment rate is somewhere in 
the high 9s.
    Representative Brady. I think they have increased about 1 
percentage point, 1.2 over our 1.5, and obviously we are not 
doing as well against others.
    Well, thank you, Commissioner, very much.
    Senator Casey. Congressman Cummings.
    Representative Cummings. Thank you very much, Mr. Chairman.
    Dr. Hall, again thank you for your work and the work of 
your staff. You know, I was just going back to Chairman Casey's 
statements. It is so easy for us--and then listening to my good 
friend, Mr. Brady--it is so easy for us to say that there has 
not been progress.
    There has been. And Chairman Casey pointed out that back in 
January of 2009 we were losing 729,000 jobs, and in January of 
this year we are talking about 26,000.
    Is that significant?
    Commissioner Hall. Yes, that is a significant moderation.
    Representative Cummings. Yes. That's what I thought.
    So no matter how you look at it, it is not about twisting 
numbers. It is not about trying to make them look better than 
what they are. We want every single American who wants to be 
employed, employed; but the fact still remains that we are 
seeing some progress.
    Let me ask you this: Going back to the temporary help 
services, that has been up? Is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. How much up was that?
    Commissioner Hall. It was up 48,000 this month, and then 
284,000 over the past five months.
    Representative Cummings. Is that significant?
    Commissioner Hall. That is significant. And that is a 
fairly reliable indicator of a strengthening labor market.
    Representative Cummings. So in other words, it sounds 
like--and so as I understand it, when you have that temporary 
help, the logic tells you that there is a probability that at 
some point those jobs will increase into permanent jobs? I 
mean, in other words, is that it?
    Commissioner Hall. Yes. Historically when temporary help 
services has started to add jobs, the overall payroll numbers 
start to increase.
    Representative Cummings. Now let me go to the African 
American unemployment situation. I note that with regard to 
African Americans back in January, last month, it was 16.5; and 
this month, it is 15.8 And I understand that is not a 
statistically significant figure? Is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. But it is a reduction.
    Let me ask you this. I looked at, for African American 
women in January of 2010 the rate was 13.3 percent, and now it 
is 12.1 percent, approximately a percentage point less. Is that 
significant?
    Commissioner Hall. You know, I'm not sure, offhand. I am 
guessing that is probably still not statistically significant, 
even though it is a fairly large change.
    Representative Cummings. Okay. But it is a reduction of a 
point? Is that right?
    Commissioner Hall. Yes.
    Representative Cummings. Okay. And let's go back to this 
whole snow storm situation. I guess that could fall either way, 
couldn't it? I mean, in other words it could have been a 
situation where it could have affected the numbers negatively 
or positively? Is that right? Either way?
    Commissioner Hall. Yes, that's correct. But to be honest, I 
would expect if it's had an effect overall it would be a 
negative effect on the numbers.
    Representative Cummings. In other words, the snow storms 
would have brought the numbers down? In other words, the 
unemployment rate would have been higher, or lower? I just want 
to make sure I understand what you're saying.
    Commissioner Hall. Sure. With the unemployment rate, 
because of the way we calculate that, I'm not sure that the 
unemployment rate was likely to have been affected much.
    Representative Cummings. Okay.
    Commissioner Hall. But the payroll jobs numbers could have 
been affected.
    Representative Cummings. And in what respect, Mr. Hall?
    Commissioner Hall. Let me give you some perspective. There 
were literally 1 million people who did not work during the 
reference week. In other words, we collect data during one 
week. Or 1 million people who did not work at all during that 
week.
    While we would count them as employed for the unemployment 
rate, there is some question as to whether or not these people 
showed up on payrolls when we collected the establishment data. 
And the thing we do not know is, some of them may have showed 
up, they may have gotten paid, they may have worked at least 
part-time, part of the time period, but some of them may not 
have worked at all. In which case, if they did not get paid, 
then they would not show up in the payroll jobs numbers and it 
would have affected those numbers.
    Representative Cummings. So in other words, you are saying 
the numbers of people employed could have been higher? Is that 
what you are saying?
    Commissioner Hall. Yes. That's correct.
    Representative Cummings. All right. And you know this whole 
issue of 31,000 jobs lost in local government, I guess that is 
pretty significant, isn't it?
    Commissioner Hall. No.
    Representative Cummings. And so local governments I guess 
are seeing their tax bases harmed, and they just do not have 
the funds, I take it?
    Commissioner Hall. Well certainly the numbers have been 
consistent with that. We have lost about 17,000 jobs a month 
over the last four months in local government, and about 13,000 
for the past 12 months. So it is unusual for a local government 
to lose jobs like that over such a long time period, even 
during recessions.
    Representative Cummings. Mr. Chairman, I see my time has 
expired.
    Senator Casey. Thank you.
    Congressman Burgess.
    Representative Burgess. Thanks, Mr. Chairman. Thanks, Dr. 
Hall, for being here again.
    Probably not quite a year ago we had a discussion about the 
weather and its effect on your numbers, and so I am grateful to 
hear your explanations today because they are similar to the 
ones that you gave me I think it was April or May of last year 
when we had some other weather event that occurred.
    And because of the way you calculate things, it is unlikely 
that the snow storms themselves would have had a significant 
effect. But have you looked back at the way the numbers were 
calculated say back in the blizzard of 1996, and then the 
recalculation of numbers that occurred after things shook out 
from that?
    Commissioner Hall. Yes, actually. As I mentioned, we had a 
million people who did not report to work during the reference 
week this time. In 1996 we had about 1.8 million people who did 
not report to work. So it was a more severe storm. And during 
that period, there was a drop in payroll employment that sort 
of recovered the next month.
    So there may have been an effect on payroll employment in 
1996, but again that was a larger event than this and we still 
don't know for sure.
    Representative Burgess. Sure. But we may see an adjustment 
in the figures next month and likely that would be an 
adjustment in the direction that the numbers were not quite as 
bad as they appeared? Or we just don't know?
    Commissioner Hall. Yes, we just don't know.
    Representative Burgess. On the household data--let me just 
apologize if you've already given this number, and I just 
missed it--we have kind of talked about the chronically 
unemployed, the people who have just given up looking for work. 
Where is our number with this month's report?
    Commissioner Hall. Well the long-term unemployed--these are 
people who are still looking but they've been unemployed for 
six months--that is 6.1 million people right now. That is a 
very high number. And of course we have people who are 
marginally attached. We have another 2.5 million who are 
marginally attached to the labor force.
    Representative Burgess. What about the--we talk about an 
unemployment figure in the past that's been 16 or 17 percent of 
people are no longer looking for work, they've just taken 
themselves out of----
    Commissioner Hall. Oh, I see. Sure. Sure. Our broadest 
number of labor under-utilization is a bit broader than the 
unemployment rate, is our so-called U-6----
    Representative Burgess [continuing]. Right.
    Commissioner Hall [continuing]. And it includes the 
unemployed. It includes people who are marginally attached who 
aren't really considered part of the labor force. And it 
includes people who are working part-time for economic reasons 
who want to work full-time.
    That rate is 16.8 percent this month.
    Representative Burgess. And that is higher than the 
previous couple of months, is it not?
    Commissioner Hall. It is actually down a little bit from 
last month, but--I'm sorry, it's up a little bit from last 
month, excuse me, but it's down from the month before that.
    Representative Burgess. On the six-month unemployment 
figures and, you know, we're all trying to figure out whether 
we are seeing green shoots or weeds growing in the parking lot 
as far as the economy is concerned--just looking at the numbers 
for February of 2009, and maybe even going back a month in 
January of 2009 where you had 2.689 million people who had been 
unemployed for six months, but the unemployed number now is 
well over 6 million? Is that right? Am I reading that 
correctly?
    Commissioner Hall. You mean the long-term unemployed?
    Representative Burgess. Yes, the six month----
    Commissioner Hall. Yes.
    Representative Burgess [continuing]. The six-month 
unemployed. So that rolling window of six months of 
unemployment has in fact doubled over the past year.
    Commissioner Hall. Yes.
    Representative Burgess. Now comparing this to other 
recessions, to other economic downturns, is this--how is this 
looking for us? I mean, to me that looks disturbing, that the 
people who have been looking for work for six months has 
doubled now in the past year's time.
    And again I don't want to belabor the point, but we did 
pass a $787 billion Stimulus bill a year ago.
    Commissioner Hall. Yes. The level of long-term unemployed 
is at record levels. It may not be exactly a record this month, 
but it has been at levels we have never seen before. The number 
of long-term unemployed are extremely high still.
    Representative Burgess. And is that doubling of the long-
term unemployed over the last year's time in spite of the 
things that we've tried to do to boost the economy? Is that 
typically what you see in a recession? Or is that unusual for 
this Recession?
    Commissioner Hall. Well you do typically see the long-term 
unemployed go up significantly during a recession.
    Representative Burgess. Double?
    Commissioner Hall. Do you have the number?
    Mr. Rones. It is certainly not unusual for that level to 
double. Sometimes it might go up even much more than that. I go 
back to the recession in the 1970s where it started out in the 
300,000s and ended up at 1.6 million. So in percentage terms, 
doubling is not unusual.
    As Commissioner Hall said, the big difference now is that 
the levels are all higher. We started at a higher rate, and we 
are at a much higher level than we have ever been before.
    Representative Burgess. Well Mr. Cummings was talking about 
the appearance of--the increase in temporary help and that 
being one of the leading indicators. Where does this number, 
this 27 weeks unemployment number, where does that fit in with 
previous recessions? Does that look like something that is 
getting better? Something that is getting worse? What can we 
say about the state of the recession?
    We have already said the temporary workers are increasing. 
That's a good thing. Those are green shoots. What is this 
number telling us? Green shoots, or weeds in the parking lot?
    Commissioner Hall. I am not sure it tells us a lot about 
the current conditions. In fact, the long-term unemployed kind 
of lag. So my point is, once the economy starts to recover and 
we actually start to grow jobs, this number in the past has 
continued to go up.
    Representative Burgess. But, Dr. Hall, we put $787 billion 
into the economy a year ago, or we thought we were. It turns 
out if you look at the Department of Energy maybe we didn't, 
but where--and then there's talk about a second Stimulus bill--
you know, people are asking what good are we doing with pumping 
these dollars into the economy if we are not seeing any relief 
for people who have been looking for work for six months?
    I mean, the people who have been looking for work for six 
months now are the very ones who were six months into the 
Stimulus package six months ago, right, because it's been a 
year since we passed the Stimulus package?
    Commissioner Hall. You mean are they the same?
    Representative Burgess. Well the rolling number of looking 
back six months and what are our unemployment numbers. Well, 
six months ago was August, and we are now six months into 
pumping all that money into the economy and saving or creating 
all of those jobs, but it didn't work out for these folks.
    Commissioner Hall. Right. Yes, this number did rise over 
2009. In the last month or two it hasn't moved very much, but 
over a longer time period it has continued to grow.
    Representative Burgess. I will yield back. I hope we will 
have time for another round.
    Senator Casey. Sure. I wanted to make a few points about 
the numbers.
    Dr. Hall, the total number of Americans unemployed right 
now is, according to your reports, 14.9 million?
    Commissioner Hall. That's correct.
    Senator Casey. In that 15 million person range for this 
month and last month. I think the record is clear not only from 
your testimony but from other data we have been seeing more 
recently, and I think it is validated today, that job loss has 
come down--you compare January and February of 2009 versus 
2010.
    According to the numbers you gave us for January and 
February of 2009, it is about 1.5 million jobs lost. January 
and February of 2010, 62,000 jobs lost. I know those numbers 
will be adjusted, but that is a significant difference.
    The other reference point I wanted to put in the record, 
the Bureau of Economic Analysis reported that Real Gross 
Domestic Product grew at an annual rate of 5.9 percent in the 
fourth quarter of 2009, which is .2 percentage points higher 
than initially estimated.
    We went from a negative GDP to a positive Gross Domestic 
Product of 5.9 in the fourth quarter of 2009. We will see what 
the first quarter of 2010 brings.
    But I did want to ask you a couple of specifics that I 
raised and Congressman Cummings raised on some of these 
subsectors. I asked you about the Veterans and persons with 
disabilities. Congressman Cummings mentioned African Americans. 
I am not sure that any of us asked about Hispanics. But let me 
just make sure I have the record right.
    With regard to African American unemployment, that rate is 
15.8?
    Commissioner Hall. That's correct.
    Senator Casey. So substantially higher than the overall 
number.
    For Hispanics, 12.4 percent?
    Commissioner Hall. Yes.
    Senator Casey. I think the percentages are always helpful, 
but sometimes the numbers are more telling. I forgot to ask you 
about the Veterans number, the raw number, the total number as 
opposed to the Veterans unemployment rate, or actually maybe if 
you could just look at those who have served post-2001, what 
that number is. Do you have that?
    Commissioner Hall. Sure. Well the number of unemployed are 
212,000.
    Senator Casey. 212,000 Veterans overall?
    Commissioner Hall. Veterans overall, yes.
    Senator Casey. And you don't know how many of those are 
post-2001?
    Commissioner Hall. Oh, I'm sorry. Excuse me, I'm not being 
clear. Those are post-2001.
    Senator Casey. That's 2001 post----
    Commissioner Hall. Yes.
    Senator Casey [continuing]. Or, I'm sorry, 212,000 
unemployed Veterans who are in that--those who have served 
since 2001?
    Commissioner Hall. Correct.
    Senator Casey. And in terms of the African American, we 
talked about the African American total and the Hispanic total, 
as opposed to just the percentage unemployed?
    Commissioner Hall. Sure. For African Americans, 2.8 million 
are unemployed.
    Senator Casey. 2.8 million? Wow.
    Commissioner Hall. And actually it's the same number for 
Hispanic or Latino, 2.8 million.
    Senator Casey. I think that's all I have for this round, 
but Congressman Brady?
    Representative Brady. You know, I think we are looking for 
hopeful signs in these numbers. What we're not looking for is 
false hope, and especially one that would drive an agenda of 
more spending, health care mandates, tax increases, again the 
blamenomics of tax and punish certain sectors, many of which 
hold the key to our job creation, it certainly is not the 
government sector that holds the key.
    I think it is important to remember and to keep in 
perspective that when we're looking at the U.S. economy that we 
actually lost fewer jobs during this recession than during the 
2001 recession.
    In the first six months of 2001 we lost more than 12 
million jobs, and in this one 15 million. One of the reasons 
the unemployment rate continues to be so stubbornly high is not 
in the job losses, it's in the lack of job creation.
    In the first six months of 2001, 33 million jobs were 
created. Through the second quarter of the present 
Administration of 2009, only 24.4 million. We've got an almost 
8 million job gap right there. And I really do believe, 
Commissioner, that the uncertainty throughout this country by 
businesses, many of whom spoke to the President in his 
roundtable with him, where they said basically we're holding 
onto our capital. We're delaying key business decisions, 
investment decisions, and hiring decisions because of forcing 
through this health care takeover, with all of its mandates and 
taxes--cap and trade, which will have a devastating impact 
long-term on our economy. Just a rash of tax increases in the 
President's budget, and just a debilitating debt that, while 
it's not at the Greece level, we are rapidly approaching those 
levels where we will lose confidence among our investors in the 
United States.
    My question is: How do you, at the BLS how do you measure, 
or are you able to measure the obstacles to an economic 
recovery--those rational expectations, I believe the economists 
call it, where businesses look at, as Congressman Burgess said, 
this massive Stimulus with little effect. They look at this 
second Stimulus again, shrug to it.
    How do you measure, or are you able to measure, the fact 
that in this environment businesses are delaying those key 
hiring decisions?
    Commissioner Hall. We really aren't able of course to 
measure the reasons for employment or unemployment, or reasons 
for the decisions that establishments make. But what we can and 
do measure is the number of people that they do employ and the 
wages that they pay.
    Representative Brady. Looking at productivity, I was 
looking into your--it seems that we always look at the hours 
that average workers have, knowing that businesses tend to make 
their workers more productive and rely upon them until they 
reach a certain point like with temporary workers before they 
begin bringing new people--hiring back or bringing new people 
on board. We continue to be around 33 hours per week, close to 
our record low.
    The long-run average is over 35 hours before businesses 
start to consider adding on the cost of hiring new employees. 
What range are we in right now?
    Commissioner Hall. For the number of hours?
    Representative Brady. Yes. Are we still around 33?
    Commissioner Hall. Yes, I'm sure that's correct. Let me 
look the exact number up for you. Yes, the average weekly hours 
are 33.8 hours.
    Representative Brady. So hiring temporary workers is a good 
sign. It should be an indicator. The fact that we still have 
room to grow in hours per week are not quite near where we want 
it to be before traditionally businesses start to hire? Is that 
true?
    Commissioner Hall. That's correct. Although I will say that 
we've had some strengthening in aggregate weekly hours worked 
in the last number of months, and like temporary help services 
that is an indicator of a tightening labor market that in the 
past has signaled better job growth.
    Representative Brady. But construction, manufacturing, the 
two areas we were told would see the most job gains in the 
Stimulus, you said construction is down how much more this 
time?
    Commissioner Hall. 64,000 this month.
    Representative Brady. Manufacturing? Do we break that out? 
Or is that part of the broader----
    Commissioner Hall. Manufacturing was essentially unchanged. 
It was a +1,000, but it is essentially flat.
    Representative Brady [continuing]. All right. Thanks, 
Commissioner.
    Senator Casey. Congressman Cummings.
    Representative Cummings. When we look at this whole issue--
going back to what Mr. Brady was saying, and we are trying to 
figure out the unemployment rate and jobs lost, whatever, we 
are talking about net? Is that right?
    In other words, it is not that jobs are not being created. 
It is that you are looking at an overall kind of picture? Is 
that right?
    Commissioner Hall. Oh, yes, that is actually true. Some of 
our data suggests that literally a million people are hired a 
week, even now during a Recession, but a million people lose 
their job, as well. So the numbers we give you are our net 
numbers.
    Representative Cummings. And looking at the long-term 
unemployed, that is basically people that have been unemployed 
for at least six months? Is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. And 23.6 percent, I think, and 
correct me if I'm wrong, of those people have been unemployed 
for more than a year? In other words, prior to this--or very 
early on in this Administration? Is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. So a lot of these people lost 
their jobs a long time ago? Is that correct?
    Commissioner Hall. That's correct.
    Representative Cummings. Now let me ask you this. Since 
last fall you have brought us unemployment figures that slowly 
crept down from 10.2 percent to now 9.7 for 2 consecutive 
months. Would it be fair to say that the labor market has 
stabilized? Or is that a word that you even use?
    Commissioner Hall. It's a word I would hesitate to lose a 
bit, but----
    Representative Cummings. To ``use''? It sounded like you 
said ``to lose.''
    Commissioner Hall [continuing]. I meant to say ``to use.'' 
I'm sorry.
    Representative Cummings. All right.
    Commissioner Hall. But it is true that the job loss has 
moderated considerably to where we are fairly close to neither 
gains nor losses for the last four months. So that is 
consistent with the idea of possibly stabilizing.
    Representative Cummings. And let me, as I close, let me 
just say this.
    Sometimes I listen to my good friends on the Republican 
side, and it's not that anybody is trying--and I'm sure the 
Chairman would agree with me, Chairman Casey would agree with 
me--nobody is trying to paint a rosy picture. We are very 
realistic. But we refuse to look and see a difference between 
729,000 jobs lost in January of 2009 and 26,000 lost in January 
of 2010 and say that is not significant.
    We want, again, every single American working. But when we 
talk about the Stimulus, and a lot of people have beat up on 
the Stimulus, and I tell you I had one of the most interesting 
experiences about three weeks ago in Baltimore in my District 
where we hired 50 police officers who would not have been 
hired, who would not have been hired, if it were not for the 
Stimulus.
    And to see these young officers be hired--and these are 
people that we desperately need. And so, you know, I think that 
a lot of people have beat up on Summers, and the Administration 
saying, oh, you predicted this would happen in this amount of 
time, this would happen--trying to predict is not always easy, 
as we can see from just our interaction with regard to these 
statistics. But the fact still remains that we are, I do 
believe, moving in the right direction.
    And I always say, I believe in cheering for the home team. 
So often what happens is we spend so much time looking at the 
doom and gloom that we don't see the progress that we are 
making.
    And so I want to thank you again, Mr. Hall, for your 
testimony. I thank your staff. And hopefully next month when we 
come back we will be able to have an even stronger report for 
the American people with regard to the employment situation 
here in our country.
    Thank you very much.
    Senator Casey. Congressman Burgess.
    Representative Burgess. Thank you.
    I've been listening to my good friend from Maryland, and I 
am reminded of philosopher Yogi Berra who said the future ain't 
what it used to be.
    The problem with these predictions--and it is not easy to 
be in the prognosticating business, especially in a time of a 
recession, and especially in the time of uncharted waters, but 
these predictions were put forward as a rationale for selling a 
policy or a group of policies that Congress passed rather 
hastily last year, and I think the only quarrel that I have 
voiced this morning is that I wish we had taken a little bit 
more time to get things right.
    We passed a ``Cash-for-Clunkers'' bill, and we may have 
done nothing but accelerate fourth-quarter earnings into the 
third quarter. I'm not quite sure how that's going to sort out. 
And I think there's someone in my neighborhood who took 
advantage of ``Cash-for-Clunkers.'' No quarrel there. It was a 
program that was duly passed by Congress. It was available for 
them to take advantage of it.
    But every day when I walk--I'm home and I walk out my front 
door and I see that automobile sitting down the street, I can't 
help but think that my grandson is going to pay for that car 
every day for the rest of his life.
    There are better ways of going about doing some of the 
things we have done this past year, and we may be locking 
ourselves into some policies that are going to be very, very 
difficult to unwind.
    Just on, Dr. Hall, on the numbers themselves, when this 
number, whether it is 10.2 or 9.7, but this number hovering 
around where it has been for the last several months, when is 
the last time in our Nation's economic history that the numbers 
were here?
    Commissioner Hall. He is going to look up the exact number, 
but I'm pretty sure it was in 1983, in that recession.
    Representative Burgess. We have talked a little bit about 
the number of minorities that are unemployed--African 
Americans, Hispanics--what about young people who are just 
getting out of college? What is their unemployment rate?
    Commissioner Hall. I may have to get back to you with 
that----
    Representative Burgess. I guess where I am going with this 
line of questioning----
    Commissioner Hall [continuing]. I can characterize it for 
you.
    Representative Burgess [continuing]. Okay.
    Commissioner Hall. Really high. It is very high. The youth 
unemployment rate has gone up quite a bit.
    Representative Burgess. Let me just ask you this. Has 
anyone looked at this situation in previous recessions? What 
are the numbers of young people unemployed, college graduates 
recently graduated from college who are unemployed, during 
times like this when there's an economic downturn versus times 
that might be regarded as more normal? And what does that do to 
that young person's lifetime earning capabilities, or lifetime 
earning expectations?
    Does having the bad fortune to start off in your productive 
years when the country is in the midst of a serious recession--
I mean, I think I remember that time you talked about, 1983, I 
know I remember 1972 because I was a recent college graduate 
and I remember how hard it was to find a job, and I think I 
went back to school because I could not find one. But it does 
affect you in a significant way.
    I remember in 1982-1983, the news stories talking about 
young people getting out of college, no hope for employment, 
this was the worst economy that they've ever emerged into. And 
with all of the statistics gathering that you all do, I just 
wondered if anyone had looked. Now we've got the 25 years of 
experience with that graduating class, and how did they differ 
from some of their cohorts who might have graduated at times 
when things were perhaps measurably better? And what does 
that--I mean, you know, you have to ask yourself, a young 
person who right now aspires to go to college and wants to go 
to a great college and wants to amass a lot of student debt, is 
that really a good idea for someone to be doing that when the 
expectation of lifetime earnings may have adjusted downward and 
we are not emerged from this Recession yet? No one knows how 
long it is going to continue. But I think these are valid 
questions.
    And then we as policymakers, because we do deal with things 
like student loans, and secondary education, we do need to take 
that into account.
    Just one last thought I want to put out there before my 
time expires. We heard from Kevin Hassett from the American 
Enterprise Institute at one of our hearings several weeks ago. 
He voiced a concern that the extension of Unemployment Benefits 
was, I won't say the word is not ``encouraging,'' but we were 
facilitating people staying unemployed by continuing to provide 
those benefits.
    Have you all looked into that in any way? Because 99 weeks 
of Unemployment Benefits, I don't know if that's unprecedented 
or not. It's a long time. We're talking about the six months 
rolling averages of unemployed. We have now gone to two years, 
almost two years of Unemployment Benefits. Is there any 
correlation there that we need to be aware of that might affect 
future policy decisions?
    Commissioner Hall. Yeah, you know, I don't know how to 
characterize it. I have seen some research that sort of showed 
that the re-employment rates go way up near the end of 
Unemployment Insurance, when that starts to run out. But I 
don't know what the cause and effect on that is. You know, it's 
not clear that these folks are holding off from getting a job 
or not from Unemployment Insurance, especially at a time like 
this.
    So if you like we can maybe put together a little--some 
studies that have been done on this.
    Representative Burgess. I think that would be helpful, 
because we are going to be asked to cast those votes again and 
again and again over this coming year.
    Commissioner Hall. Okay.
    Representative Burgess. Thanks, Mr. Chairman. I'll yield 
back.
    Senator Casey. Thank you.
    Commissioner, thank you again for your time. I know we're 
almost ready to wrap up. I did want to comment a little bit 
about some of the points that were made by our Republican 
colleagues.
    I know that a constant refrain--and they have made it here 
today--has been with regard to the Recovery bill, the Recovery 
and Reinvestment Act of 2009.
    I know they voted against it. I voted for it. And a lot of 
the Democrats did. There is a real debate about what has been 
working and what hasn't been working.
    I have to say, though, when you look at it just in terms of 
what the Congressional Budget Office has said, that the 
Recovery Act added between 1 million and 2.1 million jobs by 
the fourth quarter of 2009, up to that point in time, and 
raised economic growth by 1.5 percent to 3.5 percent over that 
period.
    CBO Director Doug Elmendorf, not a partisan in this debate, 
said, and I quote, that--he said it in this hearing as part of 
this Committee's hearings, quote:
    ``The policies that were enacted in the bill are increasing 
GDP and employment relative to what it otherwise would be.'' 
Unquote. That is Doug Elmendorf.
    And I also would note that the--and I am glad that 
Congressman Brady, a couple of minutes ago I think in both of 
his time slots, was talking about history. I think history can 
be relevant and instructive.
    He mentioned the Reagan era, and he also compared job loss 
in two different time periods. The history is instructive in a 
number of ways.
    If you look at it just in terms of job gains, when 
President Clinton was in office over eight years, the job gain 
was 22 million jobs up, if you look at the job gain in those 
years. Under President Bush, about 2 million.
    So a 22-million job gain versus 2 million.
    Also if you look at it just in terms of deficit, when 
President Clinton left office the following things had 
happened:
    The surplus--not a deficit, a surplus--was $236 billion. 
When President Bush left office, that $236 billion had changed 
to about a $1.3 trillion deficit.
    We know what the job numbers were in December of 2008 when 
President Obama came in office, January of 2009.
    If we are going to talk history, we ought to put that on 
the table as part of this debate. President Obama and this 
Congress walked into 2009 facing a set of economic 
circumstances that no Congress and no President had faced since 
the 1930s.
    I would not declare or say that the Recovery bill has 
worked perfectly. I would also not say that it has worked 
completely, because we still have at least a year of 
jumpstarting effect from the Recovery bill.
    But I did want to get to a question about manufacturing 
jobs. Now I touched on it a little bit before, but we did have 
some good news there in a sector that we seem to never have 
good news in.
    Could you, Commissioner, just walk through that for us?
    Commissioner Hall. Well, sure. Manufacturing has had a real 
long-term trend decline in employment. In the previous 
recession, manufacturing lost 1.1 million jobs and didn't 
really recover any of them.
    It has now lost another couple of million during this 
Recession, but the last couple of months the job loss has 
moderated, and the last couple of months we have had 
essentially no job loss in manufacturing.
    Senator Casey. No job loss over?
    Commissioner Hall. Over the last couple of months. It has 
only averaged about 6,000 jobs lost over the last four months, 
so the job loss has really moderated in manufacturing.
    Senator Casey. 6,000 manufacturing jobs lost over the last 
four months?
    Commissioner Hall. Per month, yes.
    Senator Casey. In my opinion, that's good news. Something 
to be positive about.
    Congressman Brady.
    Representative Brady. I'm trying to recall. Congress has 
the power of the purse string. I'm trying to recall who was in 
charge of Congress when President Clinton had that surplus. It 
was Republicans, if I recall, who handed him that major 
surplus. And I'm trying to recall who had the purse strings in 
Congress for two years who handed President Obama that 
devastating deficit of $1.2 trillion. As you said, that was 
Democrats in control of the purse string during those periods.
    I do recall not just a year ago, if memory serves, that we 
were promised if we passed that $800 trillion--billion dollar 
Stimulus that unemployment would be no higher than 8 percent. 
It would create 3.5 million jobs, restore consumer confidence.
    Well, we are hovering around 10 percent unemployment. We 
have lost another 3 million jobs since the Stimulus took 
effect. And consumer confidence, only 6 percent of Americans in 
the latest New York Times poll said they believed the Stimulus 
created jobs.
    In fact, half of Americans feel less financially secure 
today than they did when the Stimulus passed. And while I 
appreciate the Congressional Budget Office--in fact I'm a fan 
of theirs in a major way--but since their report, two different 
economic studies have shown that the Stimulus had little 
impact.
    In fact, one report over the last week in The Wall Street 
Journal showed that it will actually cost our economy $300 
billion because it has crowded out private investment and 
consumption.
    The truth is, as our friend from Maryland said, it has 
created jobs in the government sector with our policies, which 
is wonderful. The problem with those jobs is they only continue 
as long as taxpayers pay. Jobs in the private sector are what 
drives a sustainable economic recovery. And we are all rooting 
for the home team.
    We want those jobs to be created. But at home, our U.S. 
energy companies see themselves under attack. Cap and trade and 
higher taxes. Our small businesses and professionals are facing 
higher taxes, higher taxes on dividends. Our banking industry, 
our real estate industry, our financial industry, hedge funds, 
medical devices, on and on and on, no wonder they're not hiring 
at this point.
    So I think we can all pull together to try to find those 
economic policies that work best for America, but we are 
certainly not--while we are a cheerleader for this country, we 
are certainly not cheerleaders for the government, or the 
policies that aren't working.
    So we are anxious to work together with the Democrats and 
Republicans across the aisle to find those policies that 
actually won't give us false hope, but a true, sustainable 
economy.
    With that I yield back.
    Senator Casey. Congressman Burgess.
    Representative Burgess. Just one last point to make about 
the Congressional Budget Office. In the Budget and Economic 
Outlook for Fiscal Years 2010 to 2020, on page 30 of the 
report, going through a lot of numbers about the American 
Recovery and Reinvestment Act, or the stimulus bill, their 
conclusion:
    Consequently, our contribution to growth will turn negative 
during the latter part of 2010.
    So, yes, it would be nice to give it more time, but I don't 
know that giving it more time is necessarily going to allow it 
to have the effect that people are wanting.
    Dr. Hall, as always, we appreciate you coming in and 
sharing your wisdom with us. I would appreciate it if you could 
dig up those figures that we talked about earlier and have a 
look at those and look forward to visiting with you about that, 
and I'll yield back my time.
    Senator Casey. Thank you.
    Commissioner, thank you. I failed to mention at the 
beginning of the hearing why I am in this chair today as the 
Chairman of the Committee. Congresswoman Maloney couldn't be 
here. She has been ever faithful in attending these hearings 
and chairing, but she was not able to be here, and I just 
wanted to note that for the record, and we are grateful she 
gave us this opportunity.
    I want to thank our colleagues for making that long trek 
from the House over to the Senate. We are trying to have this 
hearing in both places. And as you can tell from the discussion 
here, the debate will go on.
    Thanks very much.
    [Whereupon, at 10:47 a.m., Friday, March 5, 2010, the 
hearing was adjourned.]
                       SUBMISSIONS FOR THE RECORD

            Prepared Statement of Representative Kevin Brady
    I am pleased once again to join in welcoming Dr. Hall before the 
Committee this morning.
    Today's employment report is more bad news for American workers and 
their families. Payroll employment fell by 36,000. After excluding the 
hiring of 15,000 temporary Census workers, payroll employment fell by 
51,000. The unemployment rate remained unchanged at 9.7 percent. And 
the number of discouraged workers reached a series high of 1.2 million.
    Although real GDP grew at an annualized rate of 5.9 percent in the 
fourth quarter of 2009, 66 percent of this growth was due to a one-off 
restocking of inventory. Real final sales, which are a better measure 
of the underlying trend in real GDP than the headline number, rose by 
only 1.9 percent in the fourth quarter of 2009.
    In line with this modest growth trend, the most recent Blue Chip 
consensus forecast of private economists predicts that real GDP will 
grow by 3.0 percent in 2010. Many economists are forecasting that the 
average monthly growth in payroll employment will be about 100,000 jobs 
this year. Unfortunately, such slow growth in payroll employment means 
that the unemployment rate will remain elevated. Indeed, the Blue Chip 
consensus forecast predicts that the unemployment rate will still be 
9.7 percent in the fourth quarter of 2010.
    Normally, economists would expect rapid economic growth following a 
severe recession. After the August 1981 to November 1982 recession, 
which is similar in depth and length to the recent recession, we find:

    <bullet>  The average annualized rate of real GDP growth was 7.2 
percent in the first two full quarters of the Reagan recovery compared 
with 4.1 percent in the last two quarters.
    <bullet>  During the first eight months of the Reagan recovery, 
payroll employment increased by 1.7 million jobs, while since July 2009 
payroll employment fell by 1.1 million jobs.

    Why is this recovery so much weaker than the recovery after the 
August 1981 to November 1982 recession? Seeking an answer, the 
Republican members of this committee invited some of our country's best 
economists to speak at a conference on February 23, 2010. One of these 
economists, Nobel laureate Dr. Edward C. Prescott, who is both the W. 
P. Carey Professor of Economics at Arizona State University and the 
Senior Monetary Adviser at the Federal Reserve Bank of Minneapolis, 
provided the explanation.
    Investment is depressed. Businesses are making fewer tangible 
investments in structures, equipment, and software that are captured as 
investment when calculating GDP. Moreover, businesses are also making 
fewer intangible investments in such things as research and development 
and employee training that are not captured as investment when 
calculating GDP.
    From entrepreneurs in the small companies in The Woodlands, Texas, 
to the executives of the nation's largest corporations, businesspeople 
expect that the federal taxes on the profits from new investments are 
going up by a lot. With the expiration of the 2001 and 2003 tax cuts at 
the end of this year, individual income tax rates will be increased. 
The taxes on capital gains and dividends will rise, and the death tax 
will be reinstated.
    And that's just the start. The United States is on an unsustainable 
fiscal course. Although the federal government will have serious 
difficulties meeting its existing obligations under Medicare and 
Medicaid during this decade, President Obama and congressional 
Democrats are determined to use reconciliation to ram through a new 
multi-trillion dollar health care entitlement over the clear opposition 
of the American people.
    While there is uncertainty about which taxes will increase, any 
rational entrepreneur or corporate executive expects to pay more taxes 
to finance Obama's so-called health care reform. And looming in the 
background are the prospects of higher implicit taxes through ``cap and 
trade'' and the suggestion that Obama's Democrat-controlled deficit 
reduction commission will recommend imposing a federal value-added tax 
to balance the federal budget.
    Given these expectations, Dr. Prescott demonstrated, businesses are 
holding their cash instead of making new investments. This is also what 
happened during a similar period of uncertainty about higher taxes and 
intrusive regulations under another Democratic President Franklin D. 
Roosevelt during the 1930s. Presidential scholar Dr. Alvin S. 
Felzenberg identified policy uncertainty under FDR as a major reason 
why the United States was the last industrial democracy to recover from 
the Great Depression.
    It is business investment in both tangible assets and intangibles 
that drives job creation. Unfortunately for American workers and their 
families, the prospect of higher taxes is a job-killer.
    Dr. Hall, I look forward to hearing your testimony.
                               __________
     Prepared Statement of Representative Michael C. Burgess, M.D.
    In January, Christina Romer--head of the President's Council of 
Economic Advisers--responded to the loss of jobs in December 
defensively by stating that sometimes ``real recovery'' occurs in 
``fits-and-starts,'' but what we need to focus on is the overall 
trajectory.
    So what is the overall trajectory of the Obama Administration? 
Despite the blame cast on previous Administrations in bringing us to 
the current situation, the blame game ended when the Obama 
Administration advocated the so-called $787 billion dollar stimulus 
bill, which the CBO now says has cost the American taxpayer $862 
billion dollars, because it would prevent unemployment from going above 
7%.
    And if we spent $862 billion dollars to, as President Obama said 
``will save or create more than three million new jobs over the next 
few years'' then perhaps Members of Congress wouldn't be so upset. But 
it didn't. Since we borrowed this money, unemployment has skyrocketed 
to 10%, and the CBO said the economic effect of this stimulus bill 
would go negative starting at the end of this year.
    Furthermore, only 40% of the so-called stimulus bill's $862 billion 
dollar cost has been handed out, while this country has LOST 3 million 
jobs since the stimulus has passed.
    Why? Why did this Administration and this Congress pass this bill 
only to sit on this money, all-the-while paying interest on our loan, 
while jobs have been lost in droves?
    For instance, consider the Energy Department. Yesterday, CQ 
reported that the Energy Department got $33 billion from the stimulus 
yet has merely spent $2.4 billion. I never thought the day would come 
when I would agree with my fellow JEC member Senator Charles Schumer, 
but Senator Schumer is right to want to freeze stimulus spending on 
renewable energy grants because there is so little oversight and 
investigations about how these funds are being spent.
    Or consider the Education Department. Secretary Duncan received 
$100 billion dollars in stimulus funds, double his budget from the 
previous year. And despite his outward commitment to charter schools, 
the Secretary could not even be bothered to give the District of 
Columbia the $8 million dollars it needed to fund the ``DC Opportunity 
Scholarship Program,'' which has helped over 3,300 students in D.C. 
improve their quality of life. $8 million dollars.
    I sincerely hope, as we continue to look at these unemployment 
numbers, we consider this Administration's solution to the unemployment 
numbers as hold them accountable as to how the money is spent, if it is 
spent at all, as compared to how many jobs have been created.
    Thank you.
                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment was little changed (-36,000) in 
February, and the unemployment rate held at 9.7 percent. Employment 
fell in construction and information, while temporary help services 
added jobs. Severe winter weather in parts of the country may have 
affected payroll employment and hours in February. However, as I will 
explain in a moment, there are too many unknowns to say precisely how 
much the weather might have affected these measures.
    Construction employment fell by 64,000 in February, about in line 
with the average monthly job loss over the prior 6 months. Job losses 
continued throughout the industry, although nonresidential specialty 
trades again accounted for much of the over-the-month decline. In the 
information industry, employment fell by 18,000.
    Temporary help services employment increased by 48,000 over the 
month. Since last September, this industry has added 284,000 jobs. 
Health care employment continued to trend up in February. Employment in 
most other industries showed little or no change.
    Average weekly hours for all employees in the private sector 
decreased by one-tenth of an hour in February. Average weekly hours 
declined more significantly in construction and manufacturing, 0.5 and 
0.4 hour, respectively. These declines likely reflect time lost due to 
the severe winter weather.
    Average hourly earnings of all employees in the private sector rose 
by 3 cents in February to $22.46. Over the past 12 months, average 
hourly earnings have risen by 1.9 percent. From January 2009 to January 
2010, the Consumer Price Index for All Urban Consumers (CPI-U) 
increased by 2.7 percent.
    Turning now to data from the survey of households, most key labor 
force measures were essentially unchanged in February. The unemployment 
rate remained at 9.7 percent, with jobless rates for the major worker 
groups showing little or no change. Of the 14.9 million unemployed in 
February, the proportion who had been jobless for 27 weeks or more was 
40.9 percent, little different from the all-time high of 41.2 percent 
reached in January.
    The number of individuals. working part time who preferred full-
time work rose from 8.3 to 8.8 million in February, partially 
offsetting a large decrease in January. Involuntary part-time 
employment levels had held at or near 9.2 million in the final months 
of 2009.
    Before closing, I would like to return to the issue of how the 
severe winter weather in February may have affected the payroll 
employment estimates released today. Major snowstorms struck parts of 
the country during the reference period for our establishment survey. 
Many schools, government agencies, and businesses closed temporarily, 
and many people were off work for a time because of the storms.
    In the establishment survey, workers who do not receive any pay for 
the entire pay period are not counted as employed. Therefore, it is 
possible that the storms had some negative impact on payroll 
employment. However, not every closure or temporary absence causes a 
drop in employment. Workers are counted as employed in the 
establishment survey if they are paid for a single hour during the 
reference pay period, whether they worked or not. Also, half of all 
workers have bi-weekly, semi-monthly, or monthly pay periods. I would 
assume that most of them worked during the part of the pay period that 
preceded or followed the snow events. In addition, we do not know how 
many workers may have been added to payrolls for snow removal, cleanup, 
and repairs due to the storms. Nor do we know how new hiring or 
separations were affected by the weather. For those reasons, we cannot 
say how much February's payroll employment was affected by the severe 
weather.
    In our household survey, persons with a job who miss work for 
weather-related events are counted as employed whether or not they are 
paid for the time off.
    In summary, nonfarm payroll employment was little changed in 
February, and the unemployment rate held at 9.7 percent.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 

                                  <all>

</pre></body></html>
